IN THE SUPREME COURT OF THE UNITED STATES

UNITED STATES OF AMERICA,
Petitioner,
Vv.
IMAGE PROCESSING TECHNOLOGIES LLC, ET AL.
Respondents,

CERTIFICATE OF SERVICE

I, George Thomas Lyons, III, counsel for the respondents RPM International
Inc. and Rust-Oleum Corporation (collectively, “Respondents”), hereby certify that
on this 25th day of August, 2020, I caused copies of the Brief of Respondents RPM
International Inc., Rust-Oleum Corporation to be served by a third-party

commercial carrier for delivery within three calendar days on the following counsel:

Jeffrey B. Wall Jonathan K. Waldrop

US. Dept. of Justice Kasowitz Benson Torres LLP

950 Pennsylvania Ave, NW 333 Twin Dolphin Drive, Suite 200
Washington, DC 20530-0001 Redwood Shores, California 94065
(202) 514-2217 (650) 453-5170
SupremeCtBriefs@USDOJ.gov jwaldrop@kasowitz.com

Counsel for United States of America Counsel for Stuart in 19-1994, -2238

I further certify that all parties required to be served have been served.

Respectful

 
 
  

  

R. Lyons, IIT

11 Boehnen
: erghoff LLP

300 South WackerDrive

Chicago, IL 60606

(312) 913-0001

Counsel for Respondents

   
    

&B

  
 

 
